No.

IN THE

oi5uptrittr Q.ourt

flfr prtifrk, 0,i5fatrs

Lori Sklar,

Applican,t/ Petitioner,

—v.—
California Court of Appeal, Second Appellate District,
Division One,
Respondent,
Toshiba America Information Systems, Inc.,
Real Party in Interest.

APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF THE STATE OF CALIFORNIA
APPLICATION TO THE HONORABLE ELENA KAGAN,
ASSOCIATE JUSTICE OF THE SUPREME COURT OF
THE UNITED STATES AND CIRCUIT JUSTICE FOR THE
STATE OF CALIFORNIA

Lori Sklar
2234 Sherwood Court
Minnetonka, MN 55305
(952) 546-1051
lsklar@lorisklar.corn
Petitioner In Propria Persona

ThECEIVED
OCT 1 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

\?

TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE
FOR THE STATE OF CALIFORNIA:
Pursuant to Supreme Court Rules 13.5, 22, and 30, Applicant Lori Sklar
respectfully requests a 58-day extension of time within which to file a petition for a
writ of certiorari up to and including December 23, 2021.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The order denying discretionary review for which review is sought is Lori
Sklar v. California Court of Appeal, Second Appellate District, Division One, Case
No. 5269098 (July 28, 2021) (attached as Exhibit 1).
JURISDICTION
This court will have jurisdiction over any timely filed petition for certiorari in
this case pursuant to 28 U.S.C. §1254(1). Under rules 13.1, 13.3, and 30.1 of the
rules of this court, a petition for a writ of certiorari was due to be filed on or before
October 26, 2021. In accordance with rule 13.5, this application is being filed more
than ten (10) days in advance of the filing date for the petition for writ of certiorari.
REASONS JUSTIFYING AN EXTENSION OF TIME
The Applicant was contacted by another attorney to submit a joint petition
for a writ of certiorari, as permitted by Supreme Court Rule 12.4. A joint petition
will minimize the Court's resources because of the identity of legal issues and
interests in the cases. The joint petition will present a substantial and important
federal question regarding those portions of the United States Constitution that
guarantee an impartial tribunal. U. S. Const. Amend. XIV , §1. The joint petition
1

involves a three-judge appellate panel where one panel member was later removed
from office for misconduct, and a second panel member was a victim of that
misconduct, throughout their participation in Petitioners' appellate reviews.
Consequently, a joint petition will necessarily require additional time to coordinate
the ongoing efforts in the matter before this Court. An extension of time will also
permit the time necessary to complete a cogent and well-researched joint petition.
There is good cause for a 58-day extension. Applicant did not receive additional
time under this Court's Covid-19 Orders. Accordingly, Applicant respectfully
requests that the Court extend the time in which to file a petition for writ of
certiorari for 58 days, up to and including December 23, 2021.
CONCLUSION
For the foregoing reasons, Applicant respectfully requests that this Court
grant an extension of 58 days, up to and including December 23, 2021, within which
to file a petition for a writ of certiorari in this case.
Resp fully su itted,

WA,
Lori Sklar
2234 Sherwood Court
Minnetonka, MN 55305
(952) 546-1051
lsklar@lorisklar.com
Applicant/Petitioner In Propria Persona
October 13, 2021

2

No.

IN THE

Sluiarrittr murk of tip Pniftti 0,itafts
Lori Sklar,
Applicant/Petitioner,
—v.—
California Court of Appeal, Second Appellate District,
Division One,
Respondent,
Toshiba America Information Systems, Inc.,
Real Party in Interest.

EXHIBIT

Lori Sklar
2234 Sherwood Court
Minnetonka, MN 55305
(952) 546-1051
lsklar@lorisklar.com
Petitioner In Propria Persona

